                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

TO: AIGI       File Number: I97010002                                          Date: 6 June 2002

Subject: Closeout Memo                                                                   Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have used NSF-paid students to do work for
      his private company. Our subsequent investigation showed that, while one of the interns
      unknowingly did some computer programming for the subject's company, she also successfully
      completed her project, was paid the full amount of her stipend, and highly approved of the program.
      The objectives of the program were met and no NSF h d s appear to have been misused.

      Accordingly this case is closed.




                Prepared by:                     Cleared by:
               Agent:          Attorney:       Supervisor:     AIGI
   Name:



 Signature &
    date:
                                                     NATIONAL SCENCC FoUNDATlON
"I..                                                        4201 WILSON BOULEVARD
f.
                                                            ARLINGTON, VIRGINIA '22230




                  V   E OF
             INSPECTOR GENERAL




             MEMORANDUM

             Date:           March 24, 1997

             To:             197010002
                              - -    -
                                                                                  --   A/
             From:                                                  jpecial Agent ,    G   --.
                                                                                            2
             Via:                                       .,Special Agent-in-Charge '                   /
                                                                                                 I    /
                                                                                                               Use of NSF-paid
         a   Re:              Results of Investigation Regarding Dr.
                              Interns to Complete Work For His Private Company
                                                                                                 b-




             O n January 9, 1997, our office received an allegation from a ----- = -                               -

                                                  ,.,,.,
                                     ...- - ----.-,        faculty member that Dr.'
                 _ iaculty member and Principal Investigator (PI) o n NSF grant
                       2
                             --   . ...   - -   .-     8,   -   -                                         .-

                        ..--,dsed two NSF-paid interns to do work for his private company,

                                                                                       ------
             The interns in question were paid from NSF grant
             - -. ---- --- - - - - .- - .- - -,.--.- -.--. ...- -,.-..-- -.---,. -.., an award made to
                                                                                                       -             -.-...--
                                                            -                                                    . --,     but
     \       used to fund interns for mos                                ilty members. NSF OIG interviews with one of these
             interns (the other refused to contact NSF OIG after NSF OIG left her electronic mail
             messages) confirmed that she did, in fact, complete the research project she had planned to
             do under the NSF program. In addition, she stated that, though she did not know that
                              was running a private company which developed research equipment and that
             ultimately she was assisting in developing this equipment, she ~rovided-                               - ~ i t h
             computer programming to develop equipment that would complement her student project.
             The intern stated that she was satisfied with her experiences under the program and would
             enroll in the program again if she could.

         p   We have concluded that                                    ' use of these interns did not affect their successful
             participation in the program.                          They completed their student projects, received the full
#
/
    amount of NSF funds budgeted for the program's participants, and were satisfied with their
    respective research experiences. In addition, we obtained and reviewed account summaries
    for NSF award                       - and did not identify any charges or expenses that are
    connected to              private company.           -,.,therefore, did not violate any NSF
    grant regulations and does not appear to have violated any federal statutes.

    Due to the lack of evidence showing that              ?sed NSF grant funds to support his
    private company, this case is closed.
